No.

In the Supreme Court of the United States
CONSTANTIN CHEESE, ANDRE BARNABY, BRANDON DARBY,
ANTONIO DAVIS, AVERY MITCHELL, NAHJUAN PERRY,
PIERRE RAYMOND, JAMES ROBERSON, AND SHAMEL SIMPKINS,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by U.S. Supreme Court Rule 33.1(h), I certify that the Brief for the
Petition for a Writ of Certiorari contains 5,281 words, excluding the parts of the
document that are exempted by U.S. Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 7, 2021.
/s/ Nicolas Bourtin
Nicolas Bourtin
125 Broad Street
SULLIVAN & CROMWELL LLP
New York, NY 10004
(212) 558-4000
bourtinn@sullcrom.com

